No.

IN THE
SUPREME COURT OF THE UNITED STATES

RONALD L. WEBSTER— PETITIONER
(Your Name)
VS.
SCOTT DAUFFENBACH, Warden, and PHILIP J. WEISER. Attorney General of
the State of Colorado— RESPONDENT(S)
PROOF OF SERVICE
I,Ronald L. Webster, do swear or declare that on this date, August 31, 2021, as
required by Supreme Court Rule 29 I have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly
addressed to each of them and with first*class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Office of the Attorney General
1300 Broadway, 10th Floor
Denver, CO 80203

I declare under penalty of perjury that the foregoing is true and
correct. Executed on August 31, 2021.

16

No.

IN THE
SUPREME COURT OF THE UNITED STATES

PJN

— PETITIONER

(Your Name)
VS.
scon P^vAFrir^B^C.
— RESPONDENT(S)
PROOF OF SERVICE
__________ , do swear or declare that on this date,
as required by Supreme Court Rule 29 I have
, 2021
__ Qv&ugt'__ =2.
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS on
each party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
I,

The names and addresses of those served are as follows^

o<i-/
r~^-Q.y\sO^

+

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 2021_
VU.

(Signature)

(

